      Department of Homeland Security



       U.S. Immigration and Customs Enforcement’s 

      Management Letter for FY 2012 DHS Consolidated 

                 Financial Statements Audit 





OIG-13-66                                        A pril 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 5 2013

MEMORANDUM FOR:              Radha Sekar
                             Chief Financial Officer
                             U.S. Immigration and Customs Enforcement

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     U.S. Immigration and Customs Enforcement’s
                             Management Letter for FY 2012 DHS Consolidated
                             Financial Statements Audit

Attached for your information is our final report, U.S. Immigration and Customs
Enforcement’s Management Letter for FY 2012 DHS Consolidated Financial Statements
Audit. This report contains observations related to internal control deficiencies that
were not required to be reported in the Independent Auditors’ Report on DHS’ FY 2012
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies that are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated November 14, 2012, which was included in the
DHS FY 2012 Annual Financial Report. We do not require management’s response to
the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Immigration and Customs Enforcement
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the
FY 2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The Immigration and Customs Enforcement (ICE) is a component of DHS. We noted certain matters,
related to ICE, that are summarized in the Table of Financial Management Comments on the following
pages, involving internal control and other operational matters that are less severe than a material weakness
or a significant deficiency, and consequently are reported separately to the Office of Inspector General
(OIG) and ICE management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our FY
2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix
A. The status of internal control deficiencies identified during our FY 2011 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a separate letter
to the OIG and the ICE Chief Information Officer and Chief Financial Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and ICE’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                              Immigration and Customs Enforcement
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                            Page

FMC 12-01    Inadequate Controls over New Hire Ethics Briefings                                  2
FMC 12-02    Student and Exchange Visitor Information System Data not Reconciled to Federal      2
             Financial Management System (FFMS) Data
FMC 12-03    Government Accountability Office (GAO) Checklist Review                             3
FMC 12-04    Untimely Review of Office of Government Ethics (OGE) Form 450s                      3
FMC 12-05    Ineffective Internal Controls over Leave Audit Process                              3
FMC 12-06    FFMS to Purchase Request Information System (PRISM) Reconciliation                  4
FMC 12-07    Subject to Availability of Funding Agreements not Obligated in FFMS at Outset of    4
             Agreement
FMC 12-08    Accounts Payable Estimation Methodology does not Contain Procedures for             5
             Considering Improvements to the Methodology
FMC 12-09    Inadequate Policies and Procedures for Property, Plant and Equipment (PP&E)         5
             Accruals


APPENDIX

 Appendix    Subject                                                                            Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and          6
             Recommendation (NFRs)
    B        Status of Prior Year NFRs                                                           8




                                                   1

                                Immigration and Customs Enforcement
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Inadequate Controls over New Hire Ethics Briefings (NFR No. ICE 12-01)

       The Immigration and Customs Enforcement (ICE) Ethics Office is charged with the oversight of
       ethics training for all ICE employees. ICE new hires are required to complete new hire ethics
       training within 90 days of their Entrance on Duty date. This training is delivered online through
       ICE’s Virtual University training system.

       During our testwork over new hire ethics training, we noted that five out of a sample of 45 ICE
       employees hired between October 1, 2011, and June 30, 2012, did not complete the required
       ethics training within 90 days of their Entrance on Duty date.

       Recommendation:
       We recommend that the ICE Ethics Office continue to use e–mail reminders and the escalation
       procedures that were put into place in February 2012; whereby, the Chiefs of Staff in the offices
       of employees who have yet to complete the training are notified.

FMC 12-02 – Student Exchange Visitor Information System Data not Reconciled to Federal
Financial Management System (FFMS) Data (NFR No. ICE 12-02)

       ICE collects fees from applicants for the Student Exchange Visitor Program pursuant to the
       Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (Public Law 104-208).
       ICE records revenue in FFMS – the financial system – for the transactions, and maintains
       applicant and visitor information in the Student Exchange Visitor Information System. Student
       Exchange Visitor Information System does not interface with FFMS.

       Prior to May 2012, policies and procedures were not in place at ICE to reconcile cash collections
       for Student Exchange Visitor Program to the corresponding applicant information in Student
       Exchange Visitor Information System.

       Recommendation:
       We recommend that ICE continue to use the reconciliation process that was implemented in May
       2012. Beginning in May 2012, the ICE Office of Financial Management (OFM) and the
       Burlington Finance Center began to perform reconciliation between the FFMS and the I-901 Fee
       Collection System at the detail level. The reconciliation performed at the Burlington Finance
       Center is a part of the three-way match between the Fee Collection System, the Student and
       Exchange Visitor Information System, and FFMS and gives the ability to drill down from a
       deposit recorded in FFMS to the actual student information housed in the Student and Exchange
       Visitor Information System. The Burlington Finance Center has the ability to perform this
       reconciliation daily and consolidates at the end of the month for Management’s sign-off.




                                                   2

                                 Immigration and Customs Enforcement
                                   Financial Management Comments
                                          September 30, 2012


FMC 12-03 – Government Accountability Office (GAO) Checklist Review (NFR No. ICE 12-07)

       We noted that the GAO checklist review was not performed accurately as of March 3, 2012.
       Specifically, we noted:
       •	 Four instances where ICE OFM indicated “Yes” for the existence of information in the
          financial statements when the balance or information is not reported or applicable to the
          Annual Financial Report.

       One instance where ICE indicated “N/A” for information in the financial statements when ICE’s
       operations support the reporting of certain balances.

        Recommendation:
       We recommend that ICE improve procedures to ensure that the GAO checklist is an effective
       control to assess the accuracy of accounting policies.

FMC 12-04 – Untimely Review of Office of Government Ethics (OGE) Form 450s (NFR No. ICE
12-08)

       We noted during interim testwork over entity level controls at ICE that 32 out of 45 OGE Form
       450s selected for testwork were certified by the ethics official greater than 60 days after the
       submission of the form. These forms were all reviewed by a supervisor within 60 days; however,
       the supervisors do not represent “designees” of the ethics official for the purpose of certifying the
       form. All forms were certified by the Ethics Office subsequent to the 60 day window.

       Recommendation:
       We recommend that the ICE Ethics Office make the supervisory reviewers “designees” for the
       purpose of certification in order to comply with the OGE requirements, or apply additional
       resources so that the ethics officials review the forms on-time.

FMC 12-05 –Ineffective Internal Controls over Leave Audit Process (NFR No. ICE 12-09)

       During the review of the corrective action plan of the prior-year finding related to leave audits,
       we noted that 1,118 Annual Leave Errors from the Period 8 Report had not been resolved by the
       Period 13 Report, ten weeks later.

       ICE’s Office of Human Capital implemented a new process as of July 2012 to reconcile the leave
       amounts recorded in Web Time and Attendance (WEBTA) to leave amounts reported by National
       Finance Center (NFC). We noted that following the introduction of this new process, leave errors
       decreased to 185.

       Recommendations:
       We recommend that the ICE Office of Human Capital:
       •	 Ensure that all employees responsible for timekeeping are appropriately trained in all aspects
          of the time and attendance system.
       •	 Analyze leave error reports to identify any common causes related to errors in the
          timekeeping process.




                                                    3

                                Immigration and Customs Enforcement
                                  Financial Management Comments
                                         September 30, 2012


       •	 Continue to review and report to program offices on timekeeping errors to ensure correction
          no later than two pay periods from the date of official notification.
       •	 Develop new quick reference guidance to supplement the currently used guidance which will
          educate timekeepers on the newly implemented bi-directional feed process and reinforce the
          actions required in the leave audit process.
       •	 Implement the “Timekeeping and Attendance Directive” that establishes responsibilities for
          all managers, supervisors and employees involved in the timekeeping process and sets
          internal controls for leave errors.

FMC 12-06 – FFMS to Purchase Request Information System (PRISM) Reconciliation (NFR No.
ICE 12-10)

       We noted during our tests of design and implementation of the reconciliation of FFMS and
       PRISM that policies and procedures are in place for the reconciliation; however, ICE has not
       adequately documented the remediation of variances at the document number level identified
       during the reconciliation. Additionally, there was a lack of supervisory review of the
       reconciliation.

       Recommendations:
       We recommend that ICE:
       •	 Develop and implement a supervisory review and approval process for the reconciliation.
       •	 Develop and implement a process for retaining documentation from the reconciliation that
          shows the resolution for reconciling items at the document level.

FMC 12-07 – Subject to Availability of Funding Agreements not Obligated in FFMS at Outset of
Agreement (NFR No. ICE 12-11)

       Enforcement and Removal Operations (ERO) does not record a dollar value for obligations in
       FFMS for Enforcement and Removal Operations agreements including the “Subject to
       Availability of Funds” (SAF) clause prior to incurring cost under these. Enforcement and
       Removal Operations occasionally incurs Prompt Payment Interest because of the timing lag
       between when it receives an invoice and when it has the funds available in FFMS to pay the
       invoice.

       We inquired of ICE about remediation action that had occurred to address prior year NFR ICE­
       11-16. According to ICE, the Budget and Program Performance (OBPP) has implemented
       guidelines to reduce reliance on the SAF clause in ERO agreements.

       Recommendations:
       We recommend that ICE:
       •	 Continue to implement the guidance issued by OBPP in August 2012 to Program Offices
          regarding the proper use of the SAF clause.
       •	 Fund detention bed contracts in a manner such that the use of the SAF clause is not required
          at the start of the fiscal year.
       •	 Continue the coordinated multi-office review of obligations that are not recorded in a timely
          manner.



                                                   4

                                Immigration and Customs Enforcement
                                  Financial Management Comments
                                         September 30, 2012


       •	 Structure the period of performances in ERO agreements so that they are staggered
          throughout the year in order to reduce reliance on the SAF clause.
       •	 Continue to use the revised procedures implemented by the Office of Acquisitions to ensure
          that task order periods of performances do not exceed the funding level on the individual task
          orders.

FMC 12-08 – Accounts Payable Estimation Methdology does not Contain Procedures for
Considering Improvements to the Methdology (NFR No. ICE 12-17)

       During FY 2012, we noted that ICE OFM was limiting the accounts payable estimate in certain
       BOCs and program codes to the total amounts that were obligated in those specific combinations.
       This limitation reduces the estimate amount without consideration for whether the reduction is
       necessary or meaningful to the estimate on the whole.

       Recommendation:
       We recommend that ICE OFM further refine the accrual process to determine and record an
       accrual for the highest allowable attribute posting in FFMS so that an adequate accounts payable
       accrual is recorded each month.

FMC 12-09 – Inadequate Policies and Procedures for Property Plant and Equipment (PP&E)
Accruals (NFR No. ICE 12-21)

       In a sample of three real property additions, KPMG noted that one accrual was calculated using
       an outdated obligation amount. Per review of obligating documents, KPMG determined that the
       original obligation amount had been amended in August 2012 to reduce the obligation. However,
       OFM calculated and recorded the year-end accrual for the project using the original obligation
       amount.

       Recommendation:
       We recommend that:
       •	 All pertinent ICE offices should collaborate to ensure precise accruals are recorded in the
          financial system by improving the collection and validation of data.
       •	 ICE train stakeholders to validate the data at each stage within the process in order to reduce
          the risk of anomalies.




                                                    5

                                                                                                             Appendix A
                                    Immigration and Customs Enforcement
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Inadequate Controls over New Hire Ethics Briefings                                                    12-01
              Student and Exchange Visitor Information System Data is not
12-02                                                                                                               12-02
              Reconciled to Federal Financial Management System (FFMS) data
              Inadequate Policies and Procedures for Tracking and Reporting Personal
12-03                                                                                    C
              Property
              Inadequate Internal Controls over Tracking of Internal Use Software
12-04                                                                                    C
              (IUS) Projects
              Inadequate Internal Controls over Tracking Leasehold Improvement
12-05                                                                                    C
              Projects
12-06         Prior Period Settlement Expense                                            A
12-07         Government Accountability Office (GAO) Checklist Review                                                12-03
12-08         Untimely Review of Office of Government Ethics (OGE)-450 Forms                                        12-04
12-09         Ineffective Internal Controls Over Leave Audit Process                                                12-05
12-10         FFMS to Purchase Request Information System (PRISM) Reconciliation                                     12-06
              Subject to Availability of Funding Agreements not Obligated in FFMS at
12-11                                                                                                               12-07
              Outset of Agreement
12-12         Failure to Reverse Payroll Accrual                                         A
12-13         Advances and Affiliated Obligations                                        E
              Federal Financial Management Improvement Act of 1996 (FFMIA)
12-14                                                                                                        J
              Compliance
12-15         Inadequate Documentation of Subsequent Events Review Procedures            A
12-16         Inadequate Documentation of Inventory Procedures                           C
              Accounts Payable (A/P) Estimation Methodology Does not Contain
12-17                                                                                                               12-08
              Procedures for Considering Improvements to Methodology
12-18         Deficiencies in Entity-level Controls (ELCs)                                         F
12-19         Untimely de-obligation of Undelivered Order (UDO) Balances                 E
12-20         Recoveries of Prior Year Unpaid Obligations                                E
              Inadequate Policies and Procedures for Property Plant and Equipment
12-21                                                                                                               12-09
              (PP&E) Accruals
1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation




                                                             6

                                                                                  Appendix A
                                  Immigration and Customs Enforcement
                       Crosswalk – Financial Management Comments to Active NFRs
                                           September 30, 2012


Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                         7

                                                                                                                   Appendix B
                                        Immigration and Customs Enforcement
                                             Status of Prior Year NFRs
                                                 September 30, 2012


                                                                                                  Disposition1
    NFR                                                                                                       Repeat
            Description                                                                           Closed2
    No.                                                                                                       (2011 NFR No.)
            The Federal Financial Management System (FFMS) has the Ability to Make
    11-01                                                                                             X
            Duplicate Payments
    11-02   Failure to Record Payroll Accrual                                                         X
    11-03   General Journal Entry Not Approved by Office of Financial Management Director             X
            Inadequate Internal Controls over Tracking and Removing Accumulated
    11-04                                                                                             X
            Depreciation in Sunflower Asset Management System
    11-05   Process for Identifying Contract-type Obligations for Contract Closeout is Delayed                ICE 12-19
    11-06   Inadequate Internal Controls over Tracking Leasehold Improvement Projects                         ICE 12-05
    11-07   Untimely Recording of Capitalized Asset Disposals                                                 ICE 12-03
    11-08   Reimbursable Agreements Not Timely Approved by Budget Officer                             X
    11-09   Number Not Used                                                                                Not applicable
    11-10   Contracting Officer has Access to Approve Invoices in FFMS                                X
    11-11   Incorrect Federal Employees’ Group Life Insurance Deduction                               X
    11-12   Untimely Review of Office of Government Ethics 278 Forms                                          ICE 12-08
    11-13   Insufficient Documentation for Federal Employees’ Compensation Act Claims                 X
    11-14   Federal Financial Management Improvement Act (FFMIA) Compliance                                   ICE 12-14
    11-15   Inadequate Controls over New Hire Ethics Briefings                                                ICE 12-01
            Subject to Availability of Funding Agreements not Obligated in FFMS at Outset of
    11-16                                                                                                     ICE 12-11
            Agreement
    11-17   Ineffective Internal Controls over Leave Audit Process                                             ICE 12-09
            ICE Does Not Accrue Capitalized Costs Incurred at year-end for Software and
    11-18                                                                                             X
            Leasehold Improvement Projects
    11-19   Inadequate Internal Controls over Tracking of Internal Use Software (IUS) Projects                ICE 12-04


1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow-up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                8

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 -9-                        OIG-13-66
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
